<html>
<title> - TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                        TRANSFORMING GPO FOR THE
                        21ST CENTURY AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                              MAY 17, 2017

                               ----------                              

      Printed for the use of the Committee on House Administration







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-218 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   

                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia



 
            TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Walker, Loudermilk, and 
Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director, Policy and Oversight; Cole Felder, Deputy 
General Counsel; Erin McCracken, Communications Director; C. 
Maggie Moore, Legislative Clerk; Ed Puccerella, Professional 
Staff; Dan Jarrell, Staff Assistant; Jamie Fleet, Minority 
Staff Director; Khalil Abboud, Minority Deputy Staff Director; 
and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing examining the 
Government Publishing Office and transforming it for the 21st 
century and beyond.
    The hearing record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included.
    A quorum is present, so we may proceed.
    I would like to thank the witness for being here today. I 
know that you appeared before us, I believe, in February, and, 
as you know, with a full panel of witnesses, it was difficult 
to give each witness enough time for a broader discussion. I 
appreciate your willingness to reappear today.
    When you testified in February, the Committee's focus was 
on GPO's priorities. What we did not focus on is the context 
for those priorities. By ``context,'' I mean the changing 
environment in which GPO finds itself as a result of the 
digital revolution.
    GPO is in the printing and information dissemination 
industries. Like all industries, GPO has been forced to rethink 
how it operates in a digital world, from top to bottom.
    Think of this fact: GPO opened its doors the same day that 
Abraham Lincoln was sworn in as the 16th President of the 
United States. So that was the mid-1800s. Printing presses and 
printing plates, ink, hard copies of documents, and, of course, 
no delivery trucks other than horse and buggy. Contrast these 
images with where we are today, printing, publishing, and 
disseminating government information with one click of a 
computer or your smartphone.
    I know that Congress has been concerned about GPO's mission 
in this digital age, commissioning multiple reports, such as 
the 2013 National Public Administration report, which provided 
recommendations to keep GPO relevant. GAO audits have been 
conducted to examine the status of Federal printing and the 
relevance of Title 44, which is GPO's authorizing statute and 
title section. Moreover, GPO's own inspector general continues 
to audit GPO's operations.
    Of concern to the Committee are five management challenges 
identified by GPO's IG in the last 11 semi-annual reports to 
Congress. At the top of the list is the IG's concern that GPO 
is not focusing on its core mission of information 
dissemination. Our concern and that of the IG is to see what 
progress--it appears maybe no real significant progress--by GPO 
management in addressing that challenge or the remaining four.
    So we want to give you an opportunity to bring us up to 
speed on that. And I look forward to discussing your thoughts 
on GPO's path forward and your thoughts on the IG's audits.
    Again, I thank you for your appearance before our Committee 
today.
    And I would now like to recognize my colleague, Mr. Raskin, 
for the purpose of providing an opening statement.
    [The statement of The Chairman follows:]

                   ******** COMMITTEE INSERT ********

    Mr. Raskin. Mr. Chairman, thank you very much for those 
interesting opening thoughts. I want to thank you for calling 
the hearing.
    And I want to thank our witness, Director Vance-Cooks, for 
appearing today to offer her testimony and also for the written 
testimony that she submitted. As a newly installed member of 
the Joint Committee on Printing, I very much look forward to 
putting to good use everything that I learn here today.
    The GPO provides functions critically important not only to 
our government but to a strong American democracy. The agency 
provides the public free documents and informational products 
from across the three branches. Whether online through the 
Federal Digital System, the FDsys, or in person at one of the 
1,200 Federal depository library locations, GPO keeps citizens 
informed and actively engaged in our democracy.
    Through the daily publication and widespread distribution 
of documents, GPO is instrumental to maintaining an open and 
transparent government, which is a precondition for a 
continually effective democracy. As Madison put it, ``A popular 
government without popular information or the means of 
acquiring it is but a prologue to a farce or a tragedy or 
perhaps both. Knowledge will forever govern ignorance, and a 
people who mean to be their own governors must arm themselves 
with the power which knowledge gives.''
    GPO is also essential to the continuity of operations of 
the Federal Government in the event of a disaster. GPO's 
continuity-of-operations initiative allows Federal Government 
agencies to continue to administer essential functions in the 
event of a natural, manmade, or cyber threat and ensures that 
GPO is still able to print congressional documents, the 
Congressional Record, and the Federal Register, as well as to 
produce U.S. passports.
    As the publication and dissemination of content becomes 
increasingly digitized, GPO has adapted very well to this 
changing landscape, which is remarkable for an agency over 150 
years old, as the chairman said. I am thrilled that the GPO has 
recently won awards for digital achievement, graphic design, 
and innovator of the year from In-Plant Graphics.
    I look forward to hearing testimony from the Director about 
how the agency will not only continue to adapt but also to 
innovate and thrive as technology advances. The spread of the 
internet is a money-saving opportunity for us in terms of not 
having to use as much paper but also creates the possibility of 
greater dissemination of information, and we look forward to 
your thoughts on that.
    With that, Mr. Chair, I yield back.
    [The statement of Mr. Raskin follows:]

                   ******** COMMITTEE INSERT ********

    The Chairman. Thank you, Mr. Raskin.
    Does any other Member wish to be recognized for the purpose 
of an opening statement?
    I would now like to introduce our witness. Davita Vance-
Cooks became the 27th individual to direct the U.S. Government 
Publishing Office in 2013. Ms. Vance-Cooks is the first woman 
and African American to lead the agency and has served in a 
variety of management roles at GPO since 2004.
    As Director, Ms. Vance-Cooks has guided the agency towards 
cutting costs, while at the same time modernizing GPO to 
improve services. Specifically, GPO is focused on expanding the 
electronic availability of government information via mobile 
apps, bulk data downloads, and e-books.
    So we welcome Ms. Vance-Cooks back.
    The Committee has received your written testimony. You will 
have 5 minutes to present a summary of that submission. As you 
know, to help you keep the time, the clock on the table, or the 
light system, there will be a green light for 4 minutes and 
will turn yellow when 1 minute remains. When the light turns 
red, it means that your time has expired. I am not sure that we 
do anything if you keep going.
    We are honored to have you back here and look forward to 
hearing your testimony. So the chair now recognizes Director 
Vance-Cooks for purposes of an opening statement. You are 
recognized for 5 minutes.

STATEMENT OF THE HONORABLE DAVITA VANCE-COOKS, DIRECTOR, UNITED 
              STATES GOVERNMENT PUBLISHING OFFICE

    Ms. Vance-Cooks. Chairman Harper and Members of the 
Committee, good morning. Thank you for inviting me to join in 
this discussion of transforming the GPO for the 21st century 
and beyond. GPO is one of my favorite topics, and I am 
delighted to have the opportunity to share my thoughts on GPO's 
future.
    I am pleased to report that, in order to meet the needs of 
the 21st century and beyond, the GPO has been successfully 
transforming from a print-centric manufacturing facility to a 
content-centric publishing operation, all within the 
requirements of Title 44.
    In the past, GPO transformed itself by adapting new 
technology to improve the production and quality of printed 
products. But the transformation we will discuss today is far 
different and more complex. Today, our transformation is not 
only to improve our production processes but to introduce new 
products that meet the demands of an increasingly digital 
world. We have come a long way. The GPO is a publisher, a print 
broker, a product integrator, and a developer of digital 
information platforms.
    Our transformation reflects strong partnerships with our 
public-sector customers and our private-sector suppliers. We 
have developed a diversified and integrated product and 
services portfolio that leverages private-sector technologies 
and expertise. It creates jobs within the private-sector 
business community and offers a cost-efficient set of products 
and services.
    Transforming to a content-centric publishing operation has 
been the overarching goal of the GPO since I assumed 
responsibility for the agency in 2012. Over the past 5 years, 
we have adjusted the size and the scope of the workforce, which 
is at the lowest it has ever been this past century. We are 
lean, and we are agile.
    And our information outreach, therefore our value, has 
exponentially increased because of our digital information 
operations. We are providing more information in more formats 
to more people than ever before.
    Our financials are strong. We are audited each year by an 
independent auditor, and each year we have received unmodified, 
``clean'' opinions. We pride ourselves on being cost-efficient 
and -effective, and for fiscal year 2018, for the third year in 
a row, we have submitted a flat appropriations request.
    In my prepared statement, I provided highlights of our 
activities and our accomplishments. I listed a number of them. 
For example, we rolled out the beta version of govinfo, the 
third generation of our digital information repository; we 
introduced phase one of our new digital composition system; we 
are gearing up to begin production of the next-generation 
passports.
    But these achievements and others reflect our commitment to 
our stakeholders--Congress, Federal Government agencies, the 
depository libraries, and the public--so that you can thrive in 
the 21st-century digital environment.
    Especially important to me has been the role that the men 
and women of the GPO have played in the transformation. In the 
fiscal year 2016 OPM Employee Viewpoint Survey, GPO employees 
rated this agency higher than the government-wide average. They 
consider the agency to be a good place to work. They believe in 
the mission to keep America informed, a mission rooted in 
Article I, section 5, of the Constitution.
    Not only have GPO employees been responsible for carrying 
out GPO's transformation, they have been the ones, with their 
expertise and their qualifications and their dedication, who 
have worked diligently to create a culture of innovation, which 
is why we have received a number of awards for our digital 
successes. Most recently, we were named innovator of the year 
by the In-Plant Graphics magazine.
    I am proud to work alongside the GPO employees. Through 
their efforts and continuing commitment to excellence, we will 
be ready for the 21st century.
    Mr. Chairman and Members of the Committee, this concludes 
my opening statement, and I would be happy to respond to any 
questions you may have.
    [The statement of Ms. Vance-Cooks follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   

    The Chairman. Thank you, Director Vance-Cooks, for your 
testimony. We look forward to this opportunity now to ask you 
some questions.
    Each Member is allotted 5 minutes to question the witness. 
To help each member track their time, we will use the same 
timing device here. And I will begin by recognizing myself for 
5 minutes.
    Director Vance-Cooks, as you know, of course, Title 44 of 
the United States Code, Public Printing and Documents, provides 
that all printing for Congress, the executive branch, and the 
judiciary, except the Supreme Court, is to be done by or 
conducted by GPO unless otherwise exempted. It includes all of 
GPO's statutory authority and requirements, so it is a pretty--
a lot of broad information in Title 44 that I know you have to 
operate under.
    Really, Title 44 hasn't seen any significant reforms since 
1993, and a lot has changed, if we think just that short period 
of time since 1993, the technology and other things that are 
going on and available.
    To meet the current needs of the American public and the 
digital age, from your standpoint, from your view, what reforms 
should Congress consider making to Title 44?
    Ms. Vance-Cooks. There is a chapter in Title 44, chapter 
19, which refers to the work of the Federal Depository Library 
Program. As you know, the Federal Depository Library Program is 
responsible for information dissemination to the public, public 
access.
    As we stand today, we have about 1,148 depository libraries 
in our organization or partnering with us. Forty-six of them 
are regionals; the balance are selectives. We are allowed to 
have two regionals per State.
    Last year, it was my decision to send my LSCM staff out to 
the different libraries to understand what is going on out in 
the world. How are the libraries handling the shift towards the 
digital platform? My executive staff even went out. I even went 
out and visited. We visited over 250 libraries.
    And what we found was that the libraries are grappling with 
the issues related to the digital environment. They have 
problems with staffing. They have problems with funding. They 
have problems with space. Yet Title 44 has some requirements 
that require that they continue to hold on to a lot of the 
publications. But some of those publications are going digital.
    So I would say to you that it would be in our best interest 
and it would be of interest to the Federal depository library 
community to ask them what they think about Title 44 and how 
they are operating within the restrictions and/or the benefits 
of it, because we have to make sure that our information is 
publicly available. But they are shifting towards a digital 
format. We are too.
    The Chairman. And of course we can ask them, which we will 
certainly work through you to do that. Is there anything else, 
though, that you see that would be of benefit that we need to 
look to make this work more seamlessly and more smoothly?
    Ms. Vance-Cooks. Well, when we look at Title 44, we noticed 
that all of our business segments operate within the operation 
of Title 44. Of course, that would be our plant operations, our 
Customer Services, and so on and so forth.
    We just have to make sure that Title 44 is broad enough to 
cover the changes that will occur as a result of the digital 
environment.
    The Chairman. Okay.
    Ms. Vance-Cooks. I understand that we can't predict what 
will happen with the digital environment, but we need to make 
sure that Title 44 allows us the flexibility to handle it.
    The Chairman. Okay.
    You know, Title 44 defines ``printing'' as including 
duplicating but does not separately define what ``duplicating'' 
means. How does GPO distinguish between duplicating and 
copying, if there is a distinction?
    Ms. Vance-Cooks. I would not say there really is a 
distinction.
    The Chairman. Okay. So what guidance is GPO providing to 
executive agencies to ensure that they are correctly 
identifying duplicating that should be sent to GPO?
    Ms. Vance-Cooks. We know that our process involves an SF-1 
process. We trust that our government agencies understand their 
publishing requirements. One of the reasons why we pushed for 
our name change is because we recognized that printing is 
simply the core of what we do but that we must have a 
diversified product portfolio that includes publishing.
    Publishing includes mobile apps, e-books, bulk data 
downloads, all sorts of other products that up to this point no 
one had even thought about with Title 44. But there is a clause 
in Title 44 that allows us to talk about and to respond to 
digital information platforms.
    The short answer to that question is that we are prepared 
to consult with our government agencies in their publishing 
requirements, but we cannot force them just to think of 
publishing as printing. It is more than that. And that is why I 
believe that we are in the best position to guide them in their 
publishing aspects as opposed to printing.
    The Chairman. Thank you.
    The chair will now recognize Mr. Raskin for 5 minutes for 
questioning.
    Mr. Raskin. Thank you, Chairman Harper.
    I am going to follow up on some of these questions.
    Madam Director, do you foresee a time when printing will 
actually no longer be needed or it will be the aberration 
rather than the norm?
    Ms. Vance-Cooks. I believe that there will always be room 
for printing.
    Let me explain why we will always have a tangible product 
and why we will always have printing: Because we will always 
have the need for authenticity. We will also always have the 
need for archives. We will always have to respond to the fact 
that some demographic segments will never have access to the 
internet. And we also have to be aware of the fact that there 
are lots of questions about authenticity and changes in the 
data from the point of origin to the point at which it is 
displayed to us.
    I don't believe that we will ever reach a point where we 
will not have the tangible print.
    When I look at Customer Services--this is the area or the 
business unit within the GPO that is responsible for printing 
and publishing print procurement products for the agencies--I 
have noticed that, instead of the revenue declining, as you 
would expect if print is declining, the revenue is actually 
increasing. So it points to the fact that there will always be 
a need for tangible print products as well as the intangible 
products.
    Mr. Raskin. Can you tell me--and forgive my ignorance 
here--what is your relationship with the Library of Congress, 
and how closely do you work with them in terms of planning on 
the digital future or present that we are in?
    Ms. Vance-Cooks. The Library of Congress is a partner of 
ours. Let me give you a couple of examples.
    We have a digital repository system called FDsys. FDsys is 
a repository of government information that we are responsible 
for. As it stands now, it has about 1.6 million titles, and we 
see about 35 million, 40 million documents downloaded each 
month. FDsys actually is the fuel for Congress.gov.
    Number two, we work with the Library of Congress to 
digitize a lot of their publications--well, not their 
publications, but to digitize. For example, we are working with 
them to digitize the Congressional Record all the way back to 
the inception. You might have seen some of our press releases 
where we have released all the way back to the 1960s.
    And also the Library of Congress is a member of our FDLP 
program. So there are very close ties with the Library of 
Congress.
    Mr. Raskin. So you are in the process of digitizing the 
Congressional Record back to the beginning?
    Ms. Vance-Cooks. Yes, we are, in collaboration with the 
Library of Congress. We have 1990s, 1980s, 1970s. We just 
released 1960s, and we hope to release the 1950s in June.
    Mr. Raskin. So you are doing about a decade, what, every--
--
    Ms. Vance-Cooks. A decade a month? Yes. That is true, yes.
    Mr. Raskin. So, within a couple years, the entire 
Congressional Record back to the beginning.
    Ms. Vance-Cooks. Hopefully within a year.
    Mr. Raskin. Within a year. Wow. That is something.
    Okay. How satisfied are you that you have the right mix of 
skills in your workforce today? And what are the skills that 
you are looking for in terms of hiring?
    Ms. Vance-Cooks. The skill set of our employees has 
changed, as you can imagine. When you go from a print-centric 
operation to a digital-centric operation, of course the skill 
sets are going to change. For a long time, the GPO was 
primarily blue-collar. It has now shifted to the fact that we 
have more white-collar than blue-collar.
    The skill sets are more along the lines of graphic design, 
printing, proofreading, those type of skills. We also have a 
lot of skill sets that are required for our cybersecurity work. 
We have a lot of work going on in the IT area. It is very 
important that we protect our work, that we protect it from 
cybersecurity, so you are seeing a lot of that.
    Mr. Raskin. Okay.
    Mr. Chair, thank you very much. I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Walker, for 5 minutes for questioning.
    Mr. Walker. Thank you, Mr. Chairman.
    Thank you, Ms. Vance-Cooks, for being here today. I always 
appreciate your in-depth research and your preparedness.
    A few questions that I would have today. I would like to 
start off with: As a legislative agency, is it in the best use 
of taxpayers' funds for GPO to continue to serve as its own 
landlord? Could you address that just for a moment?
    Ms. Vance-Cooks. To serve as its own landlord?
    Mr. Walker. Yes.
    Ms. Vance-Cooks. Okay. I would like to answer that question 
the other way.
    Mr. Walker. Okay.
    Ms. Vance-Cooks. GPO has a building, as you know--we 
actually have four buildings on North Capitol Street. Those 
four buildings at one time included 8,600 employees.
    Mr. Walker. Okay.
    Ms. Vance-Cooks. We are now at 1,700. We have extra space.
    We operate our budget in the sense that only 16 percent of 
our budget is appropriated. The balance of that budget, we earn 
the revenue. And we earn that revenue and use the retained 
earnings to pay for the building and to pay for the upkeep.
    Mr. Walker. Okay.
    Ms. Vance-Cooks. Because of that and because of the fact 
that we have space, we rent out the space. By renting out the 
space to other leg branch agencies in particular, we can get 
about--in fact, we are getting about $2.6 million in revenue, 
which we use to defray the costs of operating the building.
    So it is not a matter of us trying to go out to be a 
landlord; it is a matter of us using our dollars wisely, making 
sure that we have the space available for other agencies that 
need that space.
    Mr. Walker. Let's take a minute then, and I like the 
direction that we are going here as far as doing a little 
business modeling or forecasting, if you will. If you are 
looking out 5 to 10 years from now--you just mentioned as far 
as the employee reduction, the overhead functions. Give me a 
little bit of an idea, 5 to 10 years from now, what does it 
look like in terms of size, staffing, and maybe even the 
mission?
    Ms. Vance-Cooks. Okay.
    The GPO, in terms of size, I think is probably at the level 
that it will maintain. It is about 1,700 employees. The reason 
I say that is because we have become much more automated and 
much more digital in our approach towards our products. We are, 
as I mentioned earlier, more white-collar than blue-collar. We 
are adding more equipment that is more digital, and that 
automation has actually improved our productivity and 
efficiency. So I think we are just about where we need to be.
    In terms of the building, we are pretty much at capacity 
now because we have five tenants. The five tenants, I would 
like to tell you, are the Architect of the Capitol, the Capitol 
Police, the International Commission on Religious Freedom, 
Senate Sergeant at Arms, and just this week the OFR is moving 
in. And the OFR, as you know, is very tightly connected to the 
GPO, and they took up 17,000 square feet. We have also 
designated about 50,000 square feet for NARA because they need 
space for congressional archiving.
    So the bottom line is that our building will probably stay 
the same, the usage of the space will probably stay the same, 
and our employee base will probably stay the same.
    Mr. Walker. Those are the tangibles. The third part of that 
was the mission----
    Ms. Vance-Cooks. Right.
    Mr. Walker. And, kind of, looking on that. I know I threw a 
three-part question at you, but in regards to the mission, 
should GPO's goal to be to expand revenue, or should it embrace 
technology and continue to try or make some effort in reducing 
the cost of operations? Could you speak directly to the 
mission?
    Ms. Vance-Cooks. Sure.
    I think the GPO's mission is to keep America informed. Our 
mission is not to expand our revenue or to try to make, and to 
be colloquial, a lot of money. Our mission is to keep America 
informed, in accordance with Title 44.
    We are not allowed to make a profit, according to Title 44. 
We have retained earnings that we use that are put back into 
the agency for reinvestment of equipment and supplies and all 
of that to make us more efficient and to make sure that we can 
respond to the needs of our stakeholders.
    We are very much aware of the fact that Congress is going 
to move towards the 21st century and require more and more 
support from us to be more digitally savvy. To give you an 
example, you have asked us to be a member of the Bulk Data Task 
Force because you have constituents who want to have access to 
the data that is provided on your behalf so that they can 
repurpose the data so that they can, in fact, give more 
information to the public in keeping with America informed.
    That is what we do for Congress. We do everything we can to 
help you thrive, to help you be more savvy in the 21st century.
    Mr. Walker. Okay. Thank you.
    With that, I will yield back to the chairman.
    Thank you, Ms. Cooks.
    Ms. Vance-Cooks. Thank you.
    The Chairman. The gentleman yields back.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Loudermilk, for five questions--I mean 5 minutes, not five 
questions.
    Mr. Loudermilk. Mr. Chairman, I can stretch five questions 
out for quite a while.
    The Chairman. It just depends on how long you want to take.
    Mr. Loudermilk. All right. Well, thank you for recognizing 
me for 5 hours, Mr. Chairman.
    Ms. Vance-Cooks. I am sorry, did you say 5 hours?
    The Chairman. I think he meant 5 days.
    Mr. Loudermilk. Okay. I am sure we will have an opportunity 
to continue this conversation, but I have a couple questions. I 
have been really intently listening here, and a couple of areas 
clarification I didn't hear an answer to.
    How many of the FDLPs do you currently operate?
    Ms. Vance-Cooks. We have 1,148 FDLP libraries.
    Mr. Loudermilk. Eleven hundred and forty-eight.
    Ms. Vance-Cooks. That is right. They are spread across the 
United States: 46 are regionals; 1,101 or 1,102 are selectives.
    You are allowed to have two regionals per State, and then 
you can have as many selectives as possible. But not all of our 
States have regionals, not all of our States have two 
regionals. And there are a number of issues that we need to 
address related----
    Mr. Loudermilk. Have you seen an increase or a decrease?
    Ms. Vance-Cooks. Decrease.
    Mr. Loudermilk. You have had a decrease.
    Ms. Vance-Cooks. Yes, we have had a decrease, which is--I 
am really glad you asked that question. That is why, in the 
very first question, when the chairman asked me about which 
title, which part of Title 44 would we like to look at, it was 
that chapter that specifically relates to the FDLP.
    We are losing membership in the FDLP because of the fact 
that we need to be a little more flexible as the libraries, 
too, begin to shift and transfer----
    Mr. Loudermilk. So what caused the decrease?
    Ms. Vance-Cooks. I think it is because of the lack of 
flexibility, in some cases, or probably----
    Mr. Loudermilk. Okay. So it wasn't a decrease in the number 
of FDLPs because we are moving to a digital age. I mean, you 
weren't purposely decreasing.
    Ms. Vance-Cooks. No, no, no, no.
    Mr. Loudermilk. You weren't. Okay.
    How much of your budget or your money is spent on operating 
and maintaining the FDLPs?
    Ms. Vance-Cooks. We have an appropriation; it is called the 
public information programs. And it is about $29 million, $30 
million. It was $30 million last year.
    Mr. Loudermilk. Thirty million just goes to operating the 
FDLPs?
    Ms. Vance-Cooks. That is right.
    Mr. Loudermilk. None of your ancillary revenue goes to 
support that?
    Ms. Vance-Cooks. No.
    Mr. Loudermilk. So it is just an appropriation.
    Ms. Vance-Cooks. That is right.
    Mr. Loudermilk. Okay.
    What is your balance in private and public production? Do 
you use private sector for any of your production and 
publication?
    Ms. Vance-Cooks. Yes. Great question.
    Our Customer Services area is--another name for it would be 
called print procurement. We are responsible for procuring 
printing on behalf of the government agencies. We do that by 
procuring it through the private business sectors.
    We have about 9,000 private businesses that are registered 
with the GPO to provide printing. Most of them, sir, are small 
businesses, between 2 and 50 employees in that particular 
category.
    So when a Federal Government agency sends a request into 
the GPO, we immediately turn around and procure it out, we bid 
it out. It is competitively bid, no set-asides----
    Mr. Loudermilk. For the physical printing.
    Ms. Vance-Cooks. That is right.
    Mr. Loudermilk. Okay.
    Ms. Vance-Cooks. Or it could be publishing.
    Mr. Loudermilk. How do you determine--so it is by a bid 
process is how you determine who gets that?
    Ms. Vance-Cooks. That is true.
    Mr. Loudermilk. Okay.
    Ms. Vance-Cooks. And this is what I referred to earlier 
when I talked about the fact that I am surprised to see that 
our printing revenue is increasing in that area, because, as 
Congressman Raskin asked, you know, do you think that printing 
is dying, and what we see is that this is actually increasing 
as opposed to declining.
    But the good thing about us going through the private 
sector is that, by competitively bidding it, we are leveraging 
all of the power of the entire process so that we provide very, 
very efficient, very effective, cost-effective rates.
    I will say to you that, when I looked at all of the members 
of the Committee to determine exactly how much money you all 
were getting in your particular States, last year the entire 
print procurement revenue was $353 million; $197 million of 
that came from your particular States.
    Mr. Loudermilk. Okay.
    In the past decade, in the last 10 years, how much printing 
has the executive branch eliminated? I mean, how much----
    Ms. Vance-Cooks. Many years ago, I think it was almost 500 
million. Now it is 353 million. That is a good way of looking 
at it.
    Mr. Loudermilk. Three hundred and fifty million dollars? 
Pages? Documents?
    Ms. Vance-Cooks. Revenue. I am looking at it from revenue--
--
    Mr. Loudermilk. Okay.
    Ms. Vance-Cooks. In terms of executive agencies, yes.
    Mr. Loudermilk. Okay. So you have eliminated $353 million 
worth of----
    Ms. Vance-Cooks. No, no, no. No, sir. You asked me, over a 
10-year period, how many or how much revenue----
    Mr. Loudermilk. No, what work--I mean, what printing work 
has the executive branch eliminated?
    Ms. Vance-Cooks. Okay. The way in which I can respond to 
that is by looking at the revenue, the printing revenue, that 
we have been responsible for generating on behalf of----
    Mr. Loudermilk. So it is very revenue-centric for you.
    Ms. Vance-Cooks. Well, at this point, for this particular 
question, it is. But for the question for the record, if you 
would like me to look at the number of orders, I can do that 
for you.
    Mr. Loudermilk. Yeah, I would like to know what we have 
been able to eliminate.
    Ms. Vance-Cooks. Sure.
    Mr. Loudermilk. So kind of what I am hearing is, even 
though we are moving to the digital age, that digital age isn't 
reducing the cost of operating because we are still printing as 
much----
    Ms. Vance-Cooks. No.
    Mr. Loudermilk. As we printed before?
    Ms. Vance-Cooks. I think it is best to say that, as we 
shift towards--excuse me, they want me to say something. Hold 
on.
    Mr. Loudermilk. Okay.
    Ms. Vance-Cooks. What they want me to say is that the 
jobs----
    Mr. Loudermilk. You guys are ``they.'' I got it now.
    Ms. Vance-Cooks. No, I mean what they want me to say, okay, 
you know, because I think I am doing pretty good explaining it 
to you.
    Okay. We are talking about whether or not the executive 
agencies have reduced their printing. And I am saying to you 
that the executive agencies have shifted towards digital, just 
as we have, and we have supported their effort to shift toward 
digital. But there are cases where they are asking for the 
printed product.
    And in terms of the questions for the record, I will be 
happy to tell you what kind of orders are----
    Mr. Loudermilk. Sure. I would appreciate that.
    Ms. Vance-Cooks. Sure.
    And what they want me to tell you is that the jobs are 
stable. I know that. I am telling you that the jobs are in fact 
stable.
    Mr. Loudermilk. Okay. Thank you.
    I see the red light is on. That was a quick 5 days, Mr. 
Chairman.
    Ms. Vance-Cooks. Yes, it was. Thanks for the questions. I 
appreciate that.
    The Chairman. So, actually, the red light has been on for a 
while, but we let you go.
    The gentleman yields back.
    Just a couple of comments before we conclude. And if 
anything that I say, if either of the members here have any 
followup, we will certainly allow you to do that.
    You know, the management challenges in the IG report are of 
concern. And, in fact, the last 11 IG reports--and I believe 
you get one every 6 months, correct?
    Ms. Vance-Cooks. Yes.
    The Chairman. Have listed these same management challenges. 
And what we know is that, according to the IG, they say in the 
report: ``When GPO attains significant progress''--whatever 
``significant progress'' in the eyes of the IG is--``when GPO 
attains significant progress toward resolving an issue 
identified as a management challenge, OIG removes the 
challenge.''
    And we have had these same five challenges on there: 
keeping focus on its mission of information dissemination; 
addressing emerging workforce skills; improving the enterprise 
architecture and infrastructure to support enterprise-wide as 
well as GPO's FDsys transformation; securing information 
technology, or IT, systems and protecting related information 
assets; and then improving print procurement programs.
    So those are pretty serious mission statements or items 
that are under your responsibility. And I know we have to--
certainly, we understand you to be focusing on revenue. But we 
also have to make sure that we are not, by that, deviating or 
getting off-message----
    Ms. Vance-Cooks. Right.
    The Chairman. Of what our mission should be.
    So, this Committee, as an oversight committee, we will have 
another hearing before the year is over after the next IG 
report. And we would really like to see some of these come off.
    Ms. Vance-Cooks. May I address that question?
    The Chairman. I am going to give you that opportunity. Let 
me just, kind of, finish where I am here.
    I know you inherited these, okay?
    Ms. Vance-Cooks. Yes.
    The Chairman. But these are significant enough, 
particularly--we talked momentarily, just a minute earlier in 
your testimony, on cybersecurity concerns, which have been a 
great concern and in the headlines this last week. So we want 
to make sure that we are doing these things.
    So I don't know what the definition, without going further 
is, of ``significant progress,'' but I think reasonable minds, 
we could probably agree without a Supreme Court interpretation 
of what ``significant progress'' is. And I am just saying, as 
an oversight committee, we want to see that significant 
progress so that, when we come back at the end of the year and 
look at the next IG report, that we have seen significant 
progress, the IG reports that, and we are happier. How about 
that?
    And, with that, I would love to hear your response, 
Director Vance-Cooks
    Ms. Vance-Cooks. I certainly agree with you about the 
importance of the management challenges. I would like to go on 
record as stating that the management challenges as written 
will probably remain, but we will work very diligently on 
reducing the number of recommendations related to it.
    The very first management challenge that you referenced 
earlier in your remarks has to do with a statement that the IG 
made, that we should keep our focus on information 
dissemination. What he was actually referring to was making 
sure that we develop a culture that speaks towards information 
dissemination. And we are doing exactly that through the 
innovative work that we are doing in terms of digital 
information.
    The other three challenges are specifically related to IT 
and cybersecurity. And you are absolutely right, we need to 
make sure that some of those come off. I want to assure you 
that we have been working on those, but we will make sure that 
significant progress is noted the next time I come in front of 
you.
    And the last one, this is the one about improving the print 
procurement system. If you take a look at the strategic 
priorities that we have listed for fiscal year 2017, one of 
them is the fact that we are about to introduce a new system 
called DASH. We are looking at automating the print procurement 
system, which, Congressman Loudermilk, is what I was referring 
to the print procurement area, because that particular system 
needs to be updated so that we have the ability to see how the 
print procurement is working through the system.
    So I hear you, and we will make sure of that. Thank you.
    The Chairman. Thank you very much for responding to that.
    And, with that, Mr. Raskin, do you have any followup 
questions or comments?
    Mr. Raskin. Okay. Thank you. Just one final point, Mr. 
Chairman.
    So I understand that the Partnership for Public Service 
rated the Government Publishing Office as one of the best 
places to work in the Federal Government. And I am wondering--
this is music to my ears, since a number of my constituents 
work at the GPO. I represent the Eighth Congressional District 
in Maryland.
    What kinds of things have you been doing to keep morale 
high and to keep your employees engaged?
    Ms. Vance-Cooks. I believe in the importance of 
communication. When I became the head of the agency, acting at 
that point, in January of 2012, I made a pledge to the 
employees that I would communicate with them constantly. So 
every quarter I have townhall meetings. And because we are open 
24-7, that means that our townhall meetings are pretty long. We 
have one townhall meeting every quarter, and it goes all day, 
five in one day.
    We start off with the union labor meeting townhall. With 
that union labor townhall, we always connect with them to make 
sure that we are on the same page in terms of what we are 
trying to do to improve the GPO, because we both want the same 
thing.
    So, since January of 2012, Congressman, I have had over 100 
townhall meetings. That communication is critical, and I think 
that is helping.
    Mr. Raskin. Terrific. Well, I just want to salute you for 
your leadership of the office and for creating such a great 
place for people to be productive Federal employees.
    Ms. Vance-Cooks. Thank you.
    The Chairman. The gentleman yields back.
    Mr. Loudermilk, any followup?
    Mr. Loudermilk. Yeah, just a couple.
    Has GPO moved work previously performed by the private 
sector to the GPO plant?
    Ms. Vance-Cooks. I didn't hear you.
    Mr. Loudermilk. Have you moved any work that was previously 
done by the private sector actually in-house, to print in-
house?
    Ms. Vance-Cooks. The in-plant operations is primarily for 
Congress.
    Mr. Loudermilk. Okay.
    Ms. Vance-Cooks. That is congressional work. And then any 
other work that is noncongressional is primarily the Federal 
Register.
    Mr. Loudermilk. Okay.
    Ms. Vance-Cooks. And then, after the Federal Register, we 
do some of the CFR, which is part of that as well. So that is 
it.
    Mr. Loudermilk. But have you moved any that was previously 
printed by the private sector and brought it back in-house?
    Ms. Vance-Cooks. Every now and then, we have what is called 
filler work, and we might take one of the Customer Services 
work, some of that might go into the plant. But it is 
insignificant in comparison to what we do.
    Mr. Loudermilk. Okay. So, in general, you haven't moved 
anything in-house.
    Ms. Vance-Cooks. No. We pride ourselves on putting the 
executive agency work through the print procurement system.
    Mr. Loudermilk. Okay.
    Ms. Vance-Cooks. That is what we do.
    Mr. Loudermilk. All right. I yield back.
    The Chairman. The gentleman yields back.
    I certainly want to thank Director Vance-Cooks for her 
patience and always appearing and always being willing to come 
talk to us. And we greatly appreciate you doing that.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witness, which we will forward and ask Director Vance-Cooks to 
respond to as promptly as she can so her answers may be a part 
of the record.
    Without objection, the hearing is adjourned.
    [Whereupon, at 11:46 a.m., the Committee was adjourned.]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
</pre></body></html>
